TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Return Preparer Coordinators Could Improve
                the Selection of Problematic Paid Preparers
                      for Further Enforcement Actions



                                        August 27, 2014

                             Reference Number: 2014-30-050




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                      HIGHLIGHTS


RETURN PREPARER COORDINATORS                             WHAT TIGTA FOUND
COULD IMPROVE THE SELECTION OF
                                                         Return Preparer Coordinators effectively
PROBLEMATIC PAID PREPARERS FOR                           managed most of the paid preparer activities
FURTHER ENFORCEMENT ACTIONS                              under their control and provided good audit
                                                         leads for further enforcement actions. However,
                                                         more actions could be taken to ensure that the
Highlights                                               Return Preparer Coordinators timely review
                                                         referrals with allegations of inappropriate paid
Final Report issued on August 27, 2014                   preparer behavior and that the referrals and
                                                         complaints are shared among the various
Highlights of Reference Number: 2014-30-050              functions responsible for reviewing them.
to the Internal Revenue Service Commissioner
for the Small Business/Self-Employed Division.           TIGTA reviewed 2,134 paid preparer referrals
                                                         received by three Area Offices during Fiscal
IMPACT ON TAXPAYERS                                      Years 2010 through 2012 and found that the
                                                         Return Preparer Coordinators had not evaluated
In Calendar Year 2013, nearly 60 percent of all          722 referrals (34 percent) to determine if a
individual taxpayers paid someone else to                preparer case was warranted. This resulted
prepare their income tax returns. Paid                   primarily from limited resources and ineffective
preparers’ impact on tax compliance can be               controls. In addition, due to a lack of guidance,
significant. Some paid preparers have                    many of the complaints processed by the Return
intentionally manipulated tax return information         Preparer Office are not shared with the Return
to generate excessive refunds for taxpayers,             Preparer Coordinators.
modified tax returns after the taxpayers signed
them to steal the refunds, or used taxpayer              WHAT TIGTA RECOMMENDED
identities to create fictitious returns to generate
fraudulent refunds.                                      TIGTA recommended that the IRS develop
                                                         inventory controls and timeliness standards for
The Return Preparer Office coordinates the               the referral process to help ensure that
IRS’s strategy to provide oversight of                   problematic paid preparers are identified and
noncompliant paid preparers with patterns of             considered for further enforcement actions. In
preparing inaccurate tax returns. Return                 addition, TIGTA recommended that the Small
Preparer Coordinators in the Area Offices are            Business/Self-Employed Division work with the
the key control to ensure that the Examination           Return Preparer Office to develop a
function implements its part of the IRS’s Return         methodology for sharing information on paid
Preparer Strategy.                                       preparer referrals and complaints to improve the
                                                         identification of the most egregious paid
WHY TIGTA DID THE AUDIT                                  preparers for further enforcement actions.
With the growing Tax Gap, the accuracy of tax            In their response to the report, IRS officials
returns prepared by paid preparers is a                  agreed with both recommendations and plan to
concern. The overall objective of this review            take appropriate corrective actions.
was to determine if opportunities exist to
enhance the compliance efforts of the
Small Business/Self-Employed Division’s Return
Preparer Coordinators.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 27, 2014


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Return Preparer Coordinators Could Improve the
                             Selection of Problematic Paid Preparers for Further Enforcement
                             Actions (Audit # 201230021)

 This report presents the results of our review to determine if opportunities exist to enhance the
 compliance efforts of the Small Business/Self-Employed Division’s Return Preparer
 Coordinators. The review is included in our Fiscal Year 2014 Annual Audit Plan and addresses
 the major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Bryce Kisler, Acting
 Assistant Inspector General for Audit (Compliance and Enforcement Operations).
                        Return Preparer Coordinators Could Improve the Selection of
                        Problematic Paid Preparers for Further Enforcement Actions




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Return Preparer Coordinators Support the Return
          Preparer Strategy ........................................................................................... Page 3
          Return Preparer Coordinators Could More Timely
          Review Referrals to Identify the Most Egregious Paid
          Preparers for Further Enforcement Actions .................................................. Page 4
                    Recommendation 1:........................................................ Page 9

          Improved Sharing of Referral Data Would Allow for
          Better Paid Preparer Case Selection ............................................................. Page 9
                    Recommendation 2:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Return Preparer Site Visitation Programs ............................ Page 17
          Appendix V – Glossary of Terms ................................................................. Page 18
          Appendix VI – Management’s Response to the Draft Report ...................... Page 21
        Return Preparer Coordinators Could Improve the Selection of
        Problematic Paid Preparers for Further Enforcement Actions




                      Abbreviations

IRS             Internal Revenue Service
RPC             Return Preparer Coordinator
SB/SE           Small Business/Self-Employed
TIGTA           Treasury Inspector General for Tax Administration
U.S.            United States
                    Return Preparer Coordinators Could Improve the Selection of
                    Problematic Paid Preparers for Further Enforcement Actions




                                            Background

In Calendar Year1 2013, the Internal Revenue Service (IRS) processed approximately
81.5 million individual Federal income tax returns prepared by paid tax return preparers
(hereafter referred to as paid preparers). This represents nearly 60 percent of all individual
income tax returns. Because most paid preparers prepare tax returns for multiple taxpayers,
inappropriate actions can have a significant impact on tax compliance. These actions can include
intentional manipulation of tax return information to generate excessive refunds for taxpayers,
modifying tax returns after the taxpayers have signed them to steal the refunds, or using taxpayer
identities to create fictitious tax returns to generate fraudulent refunds.
In February 2014, the IRS reported Return Preparer Fraud issues as numbers four and five in its
annual list of the 12 most common tax scams known as the “Dirty Dozen.” 2 The report noted
that unscrupulous paid preparers have been known to steal their clients’ refunds, charge inflated
fees for tax return preparation services, and attract new clients by promising or guaranteeing
inflated refunds. The IRS also identified identity theft as the number one tax scam in its Dirty
Dozen list, sometimes with paid preparers as the perpetrators.3 In addition, Congress has
expressed concerns about the increase in identity theft related to taxes. This issue was the topic
of several congressional hearings during Fiscal Years 2012 and 2013.
The IRS’s Return Preparer Office is charged with addressing paid preparers with patterns of
preparing inaccurate tax returns. The Return Preparer Office is also responsible for coordinating
the IRS’s Return Preparer Strategy. The Return Preparer Office is tasked with developing
policies and carrying out the compliance program objectives to:
       Detect paid preparers misusing or not using a Preparer Tax Identification Number.
       Plan and direct Servicewide enforcement actions targeted toward noncompliant paid
        preparers.
       Identify and address paid preparers with patterns of preparing inaccurate tax returns.
The Return Preparer Office uses the Small Business/Self-Employed (SB/SE) Division’s
Examination function to make site visitations to paid preparers and to conduct audits of tax


1
  See Appendix V for a glossary of terms.
2
  The “Dirty Dozen” Tax Scams for 2014; Identity Theft, Phone Scams Lead List (Reference IR-2014-16, dated
February 19, 2014).
3
  A typical scheme involving identity theft is the preparation of fraudulent tax returns using the names and Social
Security Numbers of other individuals. The perpetrators use names and Social Security Numbers of individuals who
would not normally file tax returns (e.g., deceased taxpayers and unemployed individuals).
                                                                                                           Page 1
                     Return Preparer Coordinators Could Improve the Selection of
                     Problematic Paid Preparers for Further Enforcement Actions



returns signed by paid preparers who were identified for further review.4 Return Preparer
Coordinators (RPC) in the SB/SE Division Area Offices are the key control to ensure that the
work completed by the Examination function meets the needs of the Return Preparer Office. The
RPCs also coordinate the completion of any additional preparer cases identified by the SB/SE
Division’s Examination function for audit.
This review was performed at three SB/SE Division Area Offices5 (Western (Denver, Colorado);
Gulf States (Houston, Texas); and California (Los Angeles, California)) and with information
obtained from the SB/SE Division Headquarters in Washington, D.C., and the Return Preparer
Offices in Washington, D.C., and Chesterfield, Missouri, during the period September 2012
through February 2014. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




4
 The grouping of tax return audits related to one paid preparer’s clients is hereafter referred to as a preparer case.
5
 After completion of our site visits, the SB/SE Division realigned the geographical regions for which each Area
Office is responsible. For the purpose of this report, we are addressing the Area Offices’ geographical responsibility
and associated paid preparer referrals at the time of our site visits.
                                                                                                              Page 2
                 Return Preparer Coordinators Could Improve the Selection of
                 Problematic Paid Preparers for Further Enforcement Actions




                                Results of Review

In its oversight role, the IRS generally monitors whether paid preparers are compliant with their
responsibilities to prepare accurate tax returns and are not taking advantage of the system for
personal gain. RPCs effectively managed most of the paid preparer activities under their control
and provided good audit leads for further enforcement actions. However, more could be done to
ensure that referrals of inappropriate paid preparer behavior received by the RPCs are timely
reviewed to identify the most egregious paid preparers for further enforcement actions and that
the referrals and complaints are shared among the various functions responsible for reviewing
them.

Return Preparer Coordinators Support the Return Preparer Strategy
During our review, we visited three of the seven SB/SE Division Area Offices to evaluate the
RPCs’ efforts in meeting their responsibilities. Through discussions with the RPCs and a review
of documentation pertaining to their responsibilities, we found that the RPCs in these three Area
Offices supported the Return Preparer Strategy in several program areas. The RPCs generally:
      Planned and coordinated compliance activities related to paid preparers with other
       functions, Area Offices, and campuses. In two of the three Area Offices, the RPCs
       chaired the Preparer Steering Committee. These committees are comprised of
       representatives of the various IRS functions in the Area Office involved in oversight of
       paid preparer compliance and meet to review the progress of the oversight activities.
      Monitored the completion of and evaluated the results of the client audits included in
       preparer cases. The RPCs we visited maintained documentation showing the results of
       client audits completed on each paid preparer, including any preparer penalties asserted.
      Reviewed proposed preparer penalties to ensure that SB/SE Division examiners properly
       developed the penalty cases and that there was uniformity in the penalty determination
       process. The RPCs also provided feedback and guidance to the examiners when
       additional work was needed to fully support the assertion of the penalties.
      Monitored and guided the paid preparer visitations selected by the Return Preparer Office
       and the Wage and Investment Division. The Wage and Investment Division assisted with
       the Integrated Earned Income Tax Credit strategy by selecting paid preparers for
       visitations. These visitations, made by SB/SE Division examiners, were completed as
       part of several different initiatives covering paid preparer behavior involving the Earned
       Income Tax Credit, Individual Taxpayer Identification Numbers, paid preparer electronic


                                                                                           Page 3
                    Return Preparer Coordinators Could Improve the Selection of
                    Problematic Paid Preparers for Further Enforcement Actions



        filing requirements, and other issues. Appendix IV provides descriptions of the various
        visitation programs.
The three RPCs we visited were also effective in monitoring the paid preparer visitations
completed by the SB/SE Division examiners. We reviewed the documentation provided for the
site visitations completed in Fiscal Year 2012 and found that more than 99 percent of the site
visitations were completed. The RPCs provided the results of each visitation to the originating
function, which then determines whether there may be a need for further education or
enforcement actions on the paid preparer.
In addition to the site visits, SB/SE Division examiners also work preparer cases under the
following two programs.
       Mandatory – Directed by the Return Preparer Office.
       Discretionary – Developed by each Area Office RPC from the referrals received and
        evaluated locally.
Both types of preparer cases require substantial examination resources. Each preparer case
requires audits of at least 30 client tax returns completed and signed by the paid preparer. The
RPCs maintained documentation that summarized the number and results of the audits completed
in each preparer case.
In addition, the preparer cases developed by the Return Preparer Office and from referrals
handled by the RPCs provided good leads for identifying potential promoters of abusive tax
schemes for civil and criminal investigations. During Fiscal Years 2011 through 2013, 76 of the
SB/SE Division’s preparer cases for all RPCs in the seven Area Offices were converted to civil
promoter/preparer investigations6 approved by the SB/SE Division’s Lead Development
Center. During that same time period, these RPCs also referred 25 paid preparers to Criminal
Investigation.

Return Preparer Coordinators Could More Timely Review Referrals to
Identify the Most Egregious Paid Preparers for Further Enforcement
Actions
Although the RPCs that we visited were generally monitoring the SB/SE Division’s Return
Preparer Strategy processes effectively, we found that the RPCs were not always evaluating paid
preparer referrals received in the Area Offices. There are steps that could be taken to ensure that
the most egregious paid preparers are timely identified for further enforcement actions.



6
 These investigations determine if individuals are promoting abusive tax schemes and would be subject to the
penalties in Internal Revenue Code Sections 6700, 6701, 7407, and 7408.
                                                                                                          Page 4
                      Return Preparer Coordinators Could Improve the Selection of
                      Problematic Paid Preparers for Further Enforcement Actions



 Specifically, if the IRS timely reviewed paid preparer referrals and made better use of available
 IRS data, it would be better able to identify paid preparers with the most egregious issues.

 Limited resources and ineffective controls led to many paid preparer referrals not
 being evaluated for audit potential
 The Internal Revenue Manual lists more than a dozen sources of referrals on questionable paid
 preparers that could eventually lead to the creation of a preparer case. These referrals can come
 from external (e.g., taxpayers and other return preparers) and internal (e.g., IRS examiners and
 collection employees) sources.
 We reviewed 2,134 paid preparer referrals received by the three Area Offices during Fiscal
 Years 2010 through 2012 and found that the RPCs had not evaluated 722 referrals (34 percent) to
 determine if a preparer case was warranted.7 Figure 1 shows the volume of referrals received
 and not evaluated for the three Area Offices.
             Figure 1: Total Paid Preparer Referrals Received and Not Evaluated
                   for Potential Audit Selection by the Three Area Offices8

                                                                                                 Total for the
                    Area Office A9            Area Office B             Area Office C         Three Area Offices

     Fiscal                   Not                 Not                 Not                 Not
      Year       Referrals Evaluated Referrals Evaluated Referrals Evaluated Referrals Evaluated
     2010          134           93          471           39          203          88          808          220
     2011           56           29          558           73          202          158         816          260
     2012          130           82          263          110          117          50          510          242
 Total
                   320          204         1,292         222          522          296        2,134         722
 Referrals
 Percentage
                                64%                      17%                       57%                       34%
 Not Evaluated
Source: Data provided by Area Offices B and C and actual referrals reviewed by the Treasury Inspector General for
Tax Administration (TIGTA) for Area Office A.




 7
   We determined that a referral was not evaluated if there was no evidence that any action was taken to
 research/evaluate the referral for preparer case potential.
 8
   These are referrals received by the Area Offices during Fiscal Years 2010 through 2012. The referral databases for
 Area Offices B and C were current as of November 2012. For Area Office A, we relied on the referrals obtained
 during our February 2013 site visit. We used the databases for these years because they provide the most accurate
 count of referrals received during this three-year period since one Area Office’s record retention policy purges
 referral records if they are not pursued within three years of receipt.
 9
   The Area Offices will be referred to using generic titles throughout this report.
                                                                                                             Page 5
                 Return Preparer Coordinators Could Improve the Selection of
                 Problematic Paid Preparers for Further Enforcement Actions



The evaluation of some paid preparer referrals was not completed because the Internal Revenue
Manual does not provide timeliness guidelines for evaluating them. As a result, the RPCs had
not developed controls to ensure that every referral was evaluated.
In addition, the RPCs in the Area Offices we visited informed us that the limited audit resources
to work the preparer cases affected which referrals they evaluated. For example, the RPCs in
two Area Offices reviewed paid preparer referrals when they found time to work them.
However, the third RPC only evaluated referrals when an examination group needed inventory
and would then only focus on paid preparers working in that group’s specific geographic
location. This would result in some referrals in other geographical areas being overlooked.
As shown in Figure 1, the three Area Offices never evaluated 220 of the 808 referrals received
during Fiscal Year 2010 for preparer case potential. We focused on this population to look at
trends for these paid preparers after the referral was received. Through analysis of these
220 referrals, we found that paid preparers may have used various schemes to falsify tax return
data. Many of the tax returns completed by some of these paid preparers showed common
issues. For example, the referred issues in Fiscal Year 2010 for 47 of the 220 paid preparers
involved questionable expenses, unsubstantiated income amounts, and/or deductions claimed on
Schedule A, Itemized Deductions, Schedule C, Profit or Loss From Business (Sole
Proprietorship), or other schedules. While we found that some of these referrals were vague as
to the actual income or deduction line items involved, certain common conditions on many of the
tax returns raise concerns of possible inaccurate reporting of income, deductions, and/or credits.
For example:
      Several of these paid preparers were involved in preparing tax returns with Schedule Cs
       reporting income that allowed the taxpayers to receive inflated refunds by claiming
       excessive refundable credits, such as the Earned Income Tax Credit. For a majority of
       the questionable tax returns, there were no expenses claimed on the Schedule Cs, which
       has been determined by the IRS as a typical occurrence on returns manipulated to claim
       inflated refundable tax credits.
      Some paid preparers had claimed certain deductions or credits at rates that were from
       nine to 50 times higher than the rate for all individual tax returns claiming the same
       deductions and credits that the IRS received in Processing Year 2009. Referrals reporting
       that the paid preparers included overstated deductions or credits on the tax returns they
       completed combined with the fact that the rate of occurrence of these items was well
       above the rate for all individual tax returns indicates that these paid preparers should be
       further evaluated.
We researched the IRS’s Individual Return Transaction File and identified that these 47 paid
preparers signed a total of 52,675 tax returns processed by the IRS during Processing Years 2009
through 2012. This amounts to an average of approximately 280 tax returns prepared by each of


                                                                                           Page 6
                   Return Preparer Coordinators Could Improve the Selection of
                   Problematic Paid Preparers for Further Enforcement Actions



these individuals for each processing year. As of September 2013, the IRS has not worked the
referrals or opened preparer cases on any of these 47 referred paid preparers.
While there were many reasons why these paid preparers were referred to the RPCs we visited,
these examples show that, through prompt analysis of paid preparer referrals, the RPCs can
identify potentially problematic paid preparers and take action to halt potentially unscrupulous
preparers that would continue to harm taxpayers and the Government.

Evaluation and action on referrals may prevent paid preparers from continuing to
commit tax fraud related to identity theft
The U.S. Department of Justice has reported numerous convictions recently of paid preparers
committing identity theft by stealing the identities of individuals who would not normally file
tax returns (e.g., deceased taxpayers and unemployed individuals) to file false returns or stealing
children’s identity information to generate false dependents. For example, an April 2014
Department of Justice press release described the actions of a paid preparer who was convicted
of preparing and filing nearly 1,000 false tax returns using stolen identities and of conspiracy to
file false claims in connection with using stolen identities of children to claim false dependents
on his clients’ tax returns. The paid preparer was involved in these schemes from Calendar
Years 2008 through 2013. The paid preparer collected $1,000 per return from his clients for
claiming the stolen identities of children as dependents. The crimes resulted in a loss to the
Federal Government of more than $1.5 million.
Review of the paid preparer referrals received in Area Offices may provide for more prompt
action on paid preparers who are committing identity theft. TIGTA reported10 in July 2012 that
tax fraud by individuals filing fictitious tax returns in Processing Year 2011 with false income
and withholding is significantly larger than the 938,664 tax returns the IRS detected that
involved identity theft. While the IRS prevented the issuance of approximately $6.5 billion in
fraudulent tax refunds related to these returns, TIGTA identified an additional 1,492,215 tax
returns with similar characteristics as confirmed identity theft cases, with potentially fraudulent
tax refunds issued to taxpayers totaling in excess of $5.2 billion.
We matched the paid preparers associated with the 1,492,215 tax returns that TIGTA determined
had identity theft characteristics to the 2,134 paid preparer referrals received by the three Area
Offices during Fiscal Years 2010 through 2012. We found 294 referred paid preparers were
associated with 3,419 of the tax returns that TIGTA determined had identity theft characteristics.
The RPCs had reviewed the referrals for 158 of these paid preparers and, as a result, started
35 preparer cases. However, referrals for the remaining 136 paid preparers had not been
reviewed by the RPCs. The tax return data for the clients of the 136 paid preparers showed that
33 of the paid preparers had signed at least 10 tax returns identified by TIGTA with identity theft

10
  TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting From
Identity Theft (July 2012).
                                                                                                     Page 7
                      Return Preparer Coordinators Could Improve the Selection of
                      Problematic Paid Preparers for Further Enforcement Actions



characteristics. In addition, eight of these paid preparers each prepared more than 50 tax returns
potentially involving identity theft.
With increasing concern from IRS stakeholders and taxpayers regarding identity theft, it is
critical that the IRS reviews all the referrals it receives and uses the information available to
determine which paid preparers to take further enforcement actions upon. In addition, as more
potentially unscrupulous paid preparers are indicted and prosecuted, the attention may help deter
other paid preparers from completing fraudulent tax returns using stolen identities.

Better control and timely evaluation of paid preparer referrals would help ensure
that the most productive cases are developed
In addition to referrals that were not being reviewed by the RPCs, other weaknesses over the
control of paid preparer referrals were identified during our visits to the three Area Offices. The
RPCs for Area Offices B and C record paid preparer referrals in their own locally developed
databases, while the RPC for Area Office A manages the process manually, keeping referrals in
multiple filing cabinets and on shelves and carts with no specific inventory controls.
With no formal tracking of paid preparer referrals, the RPC for Area Office A was not able to
provide us with an accurate volume of referrals received during a fiscal year. We attempted to
review and catalog the referrals we found on hand, but due to time constraints and a pending
RPC office move, we were not able to catalog all referral receipts for Area Office A. However,
based on the number and type of paid preparer referrals we reviewed at Area Office A, we were
able to adequately evaluate the RPC’s efforts in evaluating referrals.
Each Area Office we visited developed unique processes to control paid preparer referrals based
on its needs because the Internal Revenue Manual does not provide guidance on when the RPC
should evaluate the referrals, what should be tracked, and how to track them. The Internal
Revenue Manual simply directs the RPCs to:
          Accumulate and maintain files on potentially abusive preparers from referrals received
           from [A]rea [O]ffice functions, Electronic Return Originator site visits, Earned Income
           Tax Credit Due Diligence Visits, campus compliance and Criminal Investigation, both
           [Area Office] and campus.
          Evaluate referral information for development of [preparer cases].
According to the Federal Government’s Management’s Responsibility for Internal Control,11
information should be relevant, reliable, and timely. Control activities such as policies,
procedures, and mechanisms should be in place to help ensure that the agency’s objectives are
met. Improved policies and procedures would provide the means to better control referrals so
that the most egregious paid preparers are identified for further enforcement actions.

11
     U.S. Office of Management and Budget, OMB Circular No. A-123 (Revised) (Dec. 2004).
                                                                                             Page 8
                 Return Preparer Coordinators Could Improve the Selection of
                 Problematic Paid Preparers for Further Enforcement Actions



In addition, timeliness controls help ensure that action is taken when it can provide the most
impact. The IRS has set timeliness standards for making decisions on enforcement actions in
various compliance areas. For example, Criminal Investigation has a 30-day standard for
making a decision for accepting or declining to work a referral for a criminal investigation.
Similarly, the SB/SE Division’s Examination Program Fraud Coordinators must make a decision
on whether to accept a civil fraud referral within 21 days of receipt. A similar timeliness
requirement is needed to ensure that the most problematic paid preparers are timely acted on to
prevent them from continuing to negatively affect additional taxpayers.

Recommendation
Recommendation 1: The Commissioner, SB/SE Division, should develop 1) uniform
inventory controls for the referrals received by the RPCs and 2) timeliness standards for the
review of referrals to help ensure that the most egregious paid preparers are identified and
considered for further enforcement actions.
       Management’s Response: IRS management agreed with this recommendation.
       They will evaluate existing inventory controls and timeliness standards on reviewing paid
       preparer referrals received by the SB/SE Division. Additional guidance will be issued, as
       appropriate.

Improved Sharing of Referral Data Would Allow for Better Paid
Preparer Case Selection
While various IRS functions are involved in implementing the Return Preparer Strategy, much of
the referral and complaint data gathered is not shared between the Return Preparer Office and the
SB/SE Division or even shared among each Area Office’s RPC. Each function could make
better decisions on prioritizing compliance actions on potentially problematic paid preparers by
having all referral/complaint information that the IRS has received on the paid preparers be made
available to them.

Thousands of complaints processed by the Return Preparer Office are not used
by RPCs when considering enforcement actions on paid preparers
The Return Preparer Office and the SB/SE Division’s Examination function have separate
programs aimed at identifying questionable paid preparers for potential enforcement actions.
They each use referrals or complaints of paid preparer misconduct from various sources to help
identify these paid preparers. While the referrals received by the RPCs generally come from
internal sources, the Return Preparer Office processes complaints received from the public (e.g.,
taxpayers and other paid preparers) on Form 14157, Complaint: Tax Return Preparer, and other
communications.


                                                                                            Page 9
                      Return Preparer Coordinators Could Improve the Selection of
                      Problematic Paid Preparers for Further Enforcement Actions



The Return Preparer Office received 7,968 complaints in Calendar Year 201212 and
6,334 complaints through June 2013 in Calendar Year 2013. The Return Preparer Office records
these complaints in its Return Preparer Office Complaint Database and reviews them as part of
its responsibility in deciding what actions to take on questionable paid preparers. The issues
identified from complaints against paid preparers received on Forms 14157 are similar to those
seen in the referrals handled by the RPCs in that they inform the IRS about potential paid
preparer misconduct involving several types of issues: theft of a refund, failure to provide a
copy of a tax return, failure to sign a tax return, false exemptions or dependents included on a tax
return, or any other action taken by the paid preparer that may be suspicious. However, the
Return Preparer Office shares complaint data with the SB/SE Examination function only when it
has received at least three complaints against a specific paid preparer.
The complaint information reported on Forms 14157 may have been helpful for RPCs to identify
which paid preparers to select for further enforcement actions. We matched the 2,134 paid
preparer referrals received by the three Area Office RPCs during Fiscal Years 2010 through 2012
with the 14,302 complaints handled by the Return Preparer Office during Calendar Year 2012
and through June 2013 for Calendar Year 2013 and identified 78 paid preparers on both lists.
Noting that these 78 are only for matches to referrals received in three of the seven Area Offices,
the existence of multiple complaints against paid preparers may have helped the RPCs make
their decisions on prioritizing which preparer cases should be developed. Similarly, knowledge
of the paid preparer referrals received by the RPCs could help the Return Preparer Office in
making its program action decisions.
In addition, each Area Office could benefit from having paid preparer referral information from
the other Area Offices. The RPCs we interviewed mentioned that some paid preparers complete
tax returns in multiple locations or may move from one Area Office jurisdiction to another.
Sharing referral information between Area Offices would provide a more complete picture of the
paid preparer’s behavior. This would also assist the RPCs in prioritizing the most egregious paid
preparers for further enforcement actions.
There is no guidance in the Internal Revenue Manual on the sharing of complaint/referral data
between the Return Preparer Office and the RPCs. However, sharing the complaint/referral data
would provide both the Return Preparer Office and the RPCs more complete information to
make decisions on which noncompliant paid preparers to select for further enforcement actions.
In addition, the pooling of complaint/referral data on paid preparers may be helpful for other IRS
compliance programs. For example, referrals or complaints accusing a paid preparer of stealing
taxpayer identities and submitting fraudulent tax returns would also be useful to the Identity
Theft Program Office as well as to Criminal Investigation.




12
     The Return Preparer Office started recording the complaints in February 2012.
                                                                                            Page 10
                  Return Preparer Coordinators Could Improve the Selection of
                  Problematic Paid Preparers for Further Enforcement Actions



In the current climate of limited resources for IRS programs, it is critical that the IRS improve its
efforts in identifying the most egregious paid preparers for further enforcement actions. Paid
preparers generally prepare tax returns for many clients, and if they choose to manipulate client
returns to generate excessive refunds, they could have a significant negative impact on taxpayer
compliance and the Tax Gap.

Recommendation
Recommendation 2: The Commissioner, SB/SE Division, should work with the Return
Preparer Office to develop a methodology for sharing information on paid preparer referrals and
complaints to improve the identification and selection of the most egregious paid preparers for
further enforcement actions. This methodology should also allow for the sharing of referral data
among Area Office RPCs.
       Management’s Response: IRS management agreed with this recommendation. The
       SB/SE Division and the Return Preparer Office will work jointly to improve the process
       of identifying paid preparers for enforcement action. This includes making appropriate
       changes to the preparer referral process, including guidance on distributing paid preparer
       referrals to the Area Office RPCs.




                                                                                             Page 11
                       Return Preparer Coordinators Could Improve the Selection of
                       Problematic Paid Preparers for Further Enforcement Actions



                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology

Our objective was to determine if opportunities exist to enhance the compliance efforts of the
SB/SE Division’s RPCs.1 To accomplish our objective, we:
I.         Reviewed the IRS’s policies and guidance governing the RPC’s responsibilities and the
           Return Preparer Strategy.
II.        Assessed the effectiveness of the RPCs’ efforts and whether they are meeting the needs
           of the Return Preparer Strategy. We conducted site visits at the California, Gulf States,
           and Western Area Offices and accomplished the following:
           A. Interviewed the RPCs regarding issues such as:
                   Activities and actions taken in implementing the Return Preparer Strategy,
                    Area Office responsibilities, and workload priorities.
                   Tracking and evaluating paid preparer referrals received.
                   Processes and procedures for initiating discretionary preparer cases.
                   Monitoring of mandatory and discretionary preparer cases, including associated
                    client tax return examinations.
                   Monitoring and reviewing preparer penalty cases closed by the compliance
                    functions.
                   Planning and coordinating with other functions, Area Offices, and campuses on
                    compliance activities related to paid preparers.
                   Monitoring the paid preparer visitations directed by the Return Preparer Office.
                   Referring paid preparers for promoter or criminal investigations.
           B. Obtained a copy of the paid preparer referral and preparer case databases for
              Area Offices B and C. Area Office A did not have a database, so we relied on the
              referrals obtained during our February 2013 site visit.
           C. Analyzed the paid preparer referrals that the three Area Offices received during
              Fiscal Years 2010 through 2012 and identified those for which the RPCs had not
              reviewed the referrals for preparer case potential. For the Fiscal Year 2010 referrals

1
    See Appendix V for a glossary of terms.
                                                                                                 Page 12
                  Return Preparer Coordinators Could Improve the Selection of
                  Problematic Paid Preparers for Further Enforcement Actions



           that had not been evaluated, we categorized the type of issues being referred and the
           number of tax returns that the referred paid preparers were associated with during
           Processing Years 2009 through 2012.
III.   Obtained and analyzed a copy of the Return Preparer Office Complaint Database for
       complaints received in Calendar Years 2012 and 2013 (through June 2013) and its
       referral criteria.
IV.    Identified additional opportunities for RPCs to identify and select problematic paid
       preparers for further enforcement actions.
       A. Matched the three Area Offices’ paid preparer referrals to the Return Preparer Office
          Complaint Database for complaints received in Calendar Years 2012 and 2013
          (through June 2013) to identify problematic paid preparers that had been referred to
          each office, but the RPCs had not taken any action on the referrals.
       B. Matched the referred paid preparers received by the three Area Offices during
          Fiscal Years 2010 through 2012 to the paid preparers associated with tax returns that
          TIGTA determined had identity theft characteristics similar to IRS-detected identity
          theft returns filed during Processing Year 2011.
Data validation methodology
During this review, we validated the data used in our analysis as follows:
Paid Preparer Referrals – Each of the three Area Offices we visited maintained its own referral
records. Two factors during our site visits limited our ability to fully validate the referral data
they provided. For Area Office A, there were no electronic referral data maintained, so we relied
on the actual physical referrals we reviewed. For Area Office B, we were not able to sufficiently
validate to source documents that were in storage while the Area Office support function was in
temporary space. However, we determined through discussions and review of the data that the
data were sufficiently reliable to perform our audit analysis.
Preparer Cases – We validated the Fiscal Year 2013 preparer case listings for the three Area
Offices by matching records to the IRS’s Individual Return Transaction File maintained by the
TIGTA Data Center Warehouse and determined that the data were sufficiently reliable to
perform our audit analysis.
Return Preparer Office Complaint Database – We validated the accuracy of the Return
Preparer Office Complaint Database for Calendar Years 2012 and 2013 by matching a selected
sample of electronic referral records to the actual hardcopy complaints. As a result, we
determined that the data were sufficiently reliable to perform our audit analysis.




                                                                                           Page 13
                   Return Preparer Coordinators Could Improve the Selection of
                   Problematic Paid Preparers for Further Enforcement Actions



TIGTA Identity Theft Data – The validation of this data was performed during the previous
TIGTA review2 relying on tax return and tax account data extracted from IRS electronic data
files. We relied on that data validation for the purposes of this audit.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and processes for
identifying referred paid preparers for further enforcement actions. We evaluated these controls
by reviewing internal documents and policies, interviewing the RPCs, reviewing paid preparer
tracking and selection methodology, researching current criteria on management’s responsibility
for internal controls, and conducting data analyses using the IRS’s various paid preparer
databases.




2
 TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting From
Identity Theft (July 2012).
                                                                                                    Page 14
                Return Preparer Coordinators Could Improve the Selection of
                Problematic Paid Preparers for Further Enforcement Actions



                                                                             Appendix II

                 Major Contributors to This Report

Margaret Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Nancy Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Randee Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Michelle Philpott, Acting Director
Alan Lund, Audit Manager
Julia Tai, Lead Auditor
Todd Anderson, Senior Auditor
Jean Kao, Senior Auditor
Ashley Weaver, Auditor




                                                                                    Page 15
                Return Preparer Coordinators Could Improve the Selection of
                Problematic Paid Preparers for Further Enforcement Actions



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Return Preparer Office SE:RPO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                Page 16
                         Return Preparer Coordinators Could Improve the Selection of
                         Problematic Paid Preparers for Further Enforcement Actions



                                                                                     Appendix IV

                 Return Preparer Site Visitation Programs

As part of the IRS’s Return Preparer Strategy,1 SB/SE Division examiners conduct site visits to
paid tax return preparers as part of the following programs:
           Integrated Earned Income Tax Credit Strategy – Field examiners correspond with and
            visit paid preparers who have met certain criteria specific to Earned Income Tax Credit
            issues to help improve the quality of the preparation of returns and to identify paid
            preparers who may need injunctive action.
           Return Preparer Visitation Program – Field examiners visit paid preparers who fell
            into defined high-risk categories and had received letters from the IRS in prior years
            concerning specific return preparer activities.
           Certifying Acceptance Agent and Individual Taxpayer Identification Number
            Project – Field examiners visit a sample of Certifying Acceptance Agents to ensure their
            compliance with the rules, procedures, and applicable laws related to the submission of
            Form W-7, Application for IRS Individual Taxpayer Identification Number.
           E-Filing2 and Preparer Tax Identification Number Compliance Project – Field
            examiners visit paid preparers concerning problems identified with electronic filing and
            with Preparer Tax Identification Number compliance.




1
    See Appendix V for a glossary of terms.
2
    E-filing is the electronic filing of tax returns.
                                                                                              Page 17
                Return Preparer Coordinators Could Improve the Selection of
                Problematic Paid Preparers for Further Enforcement Actions



                                                                             Appendix V

                           Glossary of Terms

Term                     Definition

Area Office              A geographic organizational level used by IRS business units and
                         offices that helps their specific types of taxpayers understand and
                         comply with tax laws and issues.
Campus                   The data processing arm of the IRS. The campuses process paper
                         and electronic submissions, correct errors, and forward data to the
                         Computing Centers for analysis and posting to taxpayer accounts.
Certifying Acceptance    An individual or entity authorized by the IRS to assist alien
Agent                    individuals and other foreign persons who are ineligible or unable
                         to receive a Social Security Number in obtaining an Individual
                         Taxpayer Identification Number from the IRS.
Criminal Investigation   Serves the American public by investigating potential criminal
                         violations of the Internal Revenue Code and related financial
                         crimes in a manner that fosters confidence in the tax system and
                         compliance with the law.
Earned Income Tax        A refundable Federal tax credit for low-income working
Credit                   individuals and families.
Examination Function     The SB/SE Division function that conducts examinations of
                         individuals, partnerships, and corporations that occur either at the
                         taxpayer’s place of business or through interviews at an IRS office.
Fiscal Year              Any yearly accounting period, regardless of its relationship to a
                         calendar year. The Federal Government’s fiscal year begins on
                         October 1 and ends on September 30.
Individual Return        An IRS database that maintains data transcribed from initial input
Transaction File         of the original individual tax returns during return processing.
Individual Taxpayer      A nine-digit number issued by the IRS to individuals who are
Identification Number    required to have a Taxpayer Identification Number but do not
                         have, and are not eligible to obtain, a Social Security Number.



                                                                                     Page 18
                  Return Preparer Coordinators Could Improve the Selection of
                  Problematic Paid Preparers for Further Enforcement Actions




Term                       Definition

Internal Revenue Code      The Federal statutory tax law, enacted as Title 26 of the U.S.
                           Code, is organized according to topic and covers all relevant rules
                           pertaining to income, gift, estate, sales, payroll, and excise taxes.
                           The IRS is the implementing agency.
Internal Revenue Manual    The primary official source of instructions to staff relating to the
                           organization, administration, and operation of the IRS.
Lead Development           A function in the IRS that centralizes the receipt and development
Center                     of internal and external leads on individuals and entities that
                           promote or aid in the promotion of abusive tax schemes.
Post of Duty               The official worksite that has been approved for the performance
                           of IRS officially assigned duties.
Preparer Steering          A group formed to identify patterns of paid preparer abuse,
Committee                  recommend the initiation of preparer cases, and monitor the
                           progress of preparer cases. Its members are from multiple
                           functions and include RPCs, Criminal Investigation
                           representatives, and others.
Preparer Tax               An identification number that all paid tax return preparers must
Identification Number      use on U.S. Federal tax returns or claims for a refund submitted to
                           the IRS.
Processing Year            The calendar year in which the tax return or document is processed
                           by the IRS.
Return Preparer            A designated staff member from the SB/SE Division Examination
Coordinator                function responsible for coordinating all compliance aspects of the
                           Return Preparer Program.
Return Preparer Office     The IRS created the Return Preparer Office in Calendar Year 2010
                           to oversee the registration, testing, and suitability of Federal paid
                           tax return preparers. Its mission is to improve taxpayer
                           compliance by providing comprehensive oversight and support of
                           tax professionals.
Return Preparer Office     The database that the Return Preparer Office uses to track
Complaint Database         complaints received on paid preparers. The database captures
                           information such as the paid preparer’s identification, alleged
                           issues, and the complaint disposition.


                                                                                         Page 19
               Return Preparer Coordinators Could Improve the Selection of
               Problematic Paid Preparers for Further Enforcement Actions




Term                       Definition

Return Preparer Strategy   A program that allows for outreach to paid preparers and the
                           examination of tax returns prepared by a particular paid preparer if
                           information indicates that a pattern of noncompliance exists. The
                           examinations are useful in identifying erroneous entries on tax
                           returns and determining if penalties are warranted against the paid
                           tax return preparer.
Social Security Number     A nine-digit number issued by the Social Security Administration.
                           The primary purpose is to track individuals’ wages and
                           self-employed earnings for Social Security benefit purpose.
Tax Gap                    The Tax Gap is the estimated difference between the amount of tax
                           that taxpayers should pay and the amount that is paid voluntarily
                           and on time.
Tax Year                   A 12-month accounting period for keeping records on income and
                           expenses used as the basis for calculating the annual taxes due.
                           For most individual taxpayers, the tax year is synonymous with the
                           calendar year.
TIGTA Data Center          The Data Center Warehouse is a collection of IRS databases
Warehouse                  containing various types of taxpayer account information that is
                           maintained by TIGTA for the purpose of analyzing data for
                           ongoing audits.




                                                                                       Page 20
    Return Preparer Coordinators Could Improve the Selection of
    Problematic Paid Preparers for Further Enforcement Actions



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 21
Return Preparer Coordinators Could Improve the Selection of
Problematic Paid Preparers for Further Enforcement Actions




                                                       Page 22
